<html>
<title> - [H.A.S.C. No. 111-143]MILITARY ASSOCIATIONS'LEGISLATIVE PRIORITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 111-143]

 
             MILITARY ASSOCIATIONS' LEGISLATIVE PRIORITIES

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 23, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-836                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a3b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a>  
                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                 Joe Hicken, Professional Staff Member
                 John Chapla, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, March 23, 2010, Military Associations' Legislative 
  Priorities.....................................................     1

Appendix:

Tuesday, March 23, 2010..........................................    25
                              ----------                              

                        TUESDAY, MARCH 23, 2010
             MILITARY ASSOCIATIONS' LEGISLATIVE PRIORITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Subcommittee on Military Personnel.....................     2

                               WITNESSES

Barnes, Master Chief Joseph L., USN (Ret.), National Executive 
  Director, The Fleet Reserve Association, and Cochairman, The 
  Military Coalition.............................................     3
Cline, Master Sgt. Michael P., USA (Ret.), Executive Director, 
  Enlisted Association of the National Guard of the United 
  States, and President, The Military Coalition..................     4
Holleman, Deirdre Parke, Esq., Executive Director, The Retired 
  Enlisted Association, and Cochair, TMC Survivor Committee......     5
Jennings, Sarah, Chief, Defense, International Affairs, and 
  Veterans' Affairs Cost Estimates Unit, Congressional Budget 
  Office.........................................................     7
McCloud, Margaret, Member, Gold Star Wives.......................    20
Stack, Suzanne, Member, Government Relations Committee, Gold Star 
  Wives..........................................................    19
Strobridge, Col. Steven P., USAF (Ret.), Director, Government 
  Relations, Military Officers Association of America (MOAA), and 
  Cochairman, The Military Coalition.............................     6

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    29
    Enlisted Association of the National Guard of the United 
      States, presented by Master Sgt. Michael P. Cline..........    86
    Gold Star Wives of America, Inc., presented by Suzanne Stack.   102
    Jennings, Sarah..............................................    95
    The Fleet Reserve Association, presented by Master Chief 
      Joseph L. Barnes...........................................    76
    The Military Coalition, presented by Master Chief Joseph L. 
      Barnes, Master Sgt. Michael P. Cline, Deirdre Parke 
      Holleman, Esq., and Col. Steven P. Strobridge..............    33
    Wilson, Hon. Joe.............................................    31

Documents Submitted for the Record:

    Reserve Officers Association and Reserve Enlisted 
      Association, Statement for the Record......................   113

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
             MILITARY ASSOCIATIONS' LEGISLATIVE PRIORITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Tuesday, March 23, 2010.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Good morning. The subcommittee will come to 
order. We want to welcome our panels here today and thank you 
very much for being with us.
    The subcommittee today will be focusing on the legislative 
priorities of military associations and the implications of 
direct spending on the ability of the Congress to meet these 
priorities.
    It has been a tradition of the subcommittee to hear from 
the beneficiary and the advocacy organizations at the start of 
the legislative season so that the subcommittee has a better 
understanding of the many issues of interest to service members 
and their families. Much of the testimony we will hear today 
will address the challenges--and we know there are many, many 
challenges--the challenges facing our military families, and 
that is an area of great interest to me because the evidence 
that has been presented to the subcommittee has confirmed that 
our military families are under great stress.
    As we observed last year, the current economic climate 
remains a challenge to all Americans, and our service members 
and their families are certainly not immune to its effects. It 
is also fair to say that we in the Congress are also feeling 
the pinch of tightening budgets. As such, the ability of the 
subcommittee to enhance and to reform the many important 
personnel programs that we review each year will continue to be 
very difficult during fiscal year 2011. That reality will be 
particularly true for health care programs and those 
initiatives that involve mandatory accounts.
    Identifying the legislative priorities of these 
organizations provides the members of the subcommittee a better 
appreciation of the many competing requirements and where the 
attention of the Congress should be targeted. Their input on a 
wide range of personnel programs and policies that impact 
service members, their families and retirees will help form 
this year's National Defense Authorization Act.
    I want to welcome our first panel: Master Chief Petty 
Officer Joseph Barnes, retired, from the U.S. Navy. He is the 
national Executive Director of the Fleet Reserve Association; 
Master Sergeant Michael Cline, U.S. Army, retired, Executive 
Director of the Enlisted Association of the National Guard of 
the United States; Mrs. Deirdre Parke Holleman, Executive 
Director of the Retired Enlisted Association; Colonel Steve 
Strobridge, the U.S. Air Force, retired, Director, Government 
Relations, Military Officers Association of America; and Ms. 
Sarah Jennings, the Unit Chief of Budget Analysis Division of 
the Congressional Budget Office (CBO).
    We will also have a second panel. We want to welcome them 
as well, and they are Ms. Suzanne Stack of the Gold Star Wives 
and Ms. Margaret McCloud, also of the Gold Star Wives. We look 
forward to their testimony after the first panel.
    Ms. Jennings is here testifying on behalf of the 
Congressional Budget Office, which provides information and 
estimates required for the congressional budget process.
    I greatly appreciate your joining this discussion. We need 
you. So thank you so much for being here. I know you have 
particular insight into mandatory, entitlement and direct 
spending issues that limit Congress' ability to provide 
solutions for some of the highest-priority programs we will 
hear about today.
    So, too, to all of you, welcome. I would ask that you 
testify in the order that I stated. And without objection, all 
written statements will be included in the record, and, Mr. 
Wilson, I certainly welcome any comments that you have.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 29.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
  CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Thank you, Chairwoman Davis, for holding this 
hearing. It is important for us to hear the views of our 
witnesses on their priorities for legislative action. And I 
particularly appreciate that you are here. I am part of a 
military family. I am very grateful my dad served with the 
Flying Tigers in World War II, my late father-in-law received 
the Navy Cross for service on Okinawa as a Marine, and then I 
am very grateful my wife helped train our four sons and give 
them the opportunities and challenge of military service. We 
have got four sons in the military, three in the Army National 
Guard, one in the Navy, and two have served in Iraq. Another 
served in Egypt with the National Guard, and the fourth guy is 
Army Reserve Officers' Training Corps (ROTC) and simultaneous 
National Guard engineer. Additionally, I am very grateful I 
have a nephew who just is concluding his service in the Air 
Force this week serving in Iraq. And so I take very personally 
what you do and how much you mean to our country, and so I am 
honored to be here with Chairwoman Davis.
    I am especially grateful to you for honoring my request 
that we have testimony from the Gold Star Wives on the 
imperative that Congress repeal the widow's tax, the mandated 
reduction of service survivor benefit annuities when receiving 
dependency and indemnity compensation (DIC). Both witnesses on 
the second panel have suffered the loss of a spouse on active 
duty and can talk directly about the need for repeal.
    As many of you know, the husband of one of those witnesses, 
Maggie McCloud, was Lieutenant Colonel Trane McCloud, who was 
killed in action in Iraq. Trane was an active duty Marine and 
served as a defense legislative fellow in 2003 in the Office of 
the Second District of South Carolina. I learned firsthand of 
what a dedicated Marine Trane was and as a devoted husband and 
father.
    I am also glad we will be hearing from an expert from the 
Congressional Budget Office regarding mandatory spending and 
the pay-as-you-go (PAYGO) rules that affect how offsets to 
mandatory spending can be achieved. We need to understand those 
rules and why it is nearly impossible for Chairman Skelton and 
others to pass legislation with mandatory spending costs.
    What our CBO witness is probably not going to be able to 
address or explain, however, is what many of our witnesses 
today and most Americans see, and that is when House leadership 
deems it a priority, the rules can, and are set aside. Thus, 
for example, Congress and the President have committed to 
spending trillions of dollars to spend on the economy without 
any seeming concern for mandatory spending offsets. Cash for 
Clunkers was funded, $1 billion, in a matter of hours, with 
additional funding provided immediately when it ran out of 
money. It is my view, as I know it is yours, that we and our 
constituents must make it clear to House leadership that 
addressing the numerous concurrent receipt and mandatory 
spending issues are a priority and worthy of their support.
    Again, thank you for holding this hearing, and I look 
forward to the testimony of our witnesses.
    Mrs. Davis. Thank you, Mr. Wilson.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 31.]
    Mrs. Davis. And please begin, Mr. Barnes.

    STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, USN (RET.), 
NATIONAL EXECUTIVE DIRECTOR, THE FLEET RESERVE ASSOCIATION, AND 
               COCHAIRMAN, THE MILITARY COALITION

    Master Chief Barnes. Madam Chairwoman, Ranking Member 
Wilson and members of the subcommittee, thank you for the 
opportunity to appear before you today. The Military Coalition 
statement reflects the consensus of 34 coalition organizations 
on a broad range of important personnel issues. Four of us will 
address key issues important to the active, Guard and Reserve, 
retiree and survivor communities, and we will conclude with 
health care concerns which impact everyone within these groups.
    First, I thank you and the entire subcommittee and your 
outstanding staff for effective leadership and strong support 
of essential pay and benefit program enhancements. Adequate 
service end strengths are essential to success in Iraq and 
Afghanistan and to sustaining other operations. And the 
coalition strongly supports proposed Army and Navy end 
strengths in 2011.
    The strain of repeated deployments continues, and we are 
tracking disturbing indicators of the effects, which include 
increased use of alcohol and drugs, more mental health care 
appointments, alarming suicide rates, plus more military 
divorces. Continuing stress can lead to serious morale, 
readiness, and retention challenges.
    Pay comparability remains a top priority, and the coalition 
strongly supports authorization of a 1.9 percent 2011 active 
duty pay hike. We appreciate your past support for higher-than-
employment-cost-index (ECI) pay increases, which has 
collectively reduced the pay gap to 2.4 percent. Adequate 
funding for military recruiting efforts is important, and 
sufficient resources are essential to ensure continuing 
recruiting success despite the small percentage of recruiting-
age people who qualify for military service.
    The coalition strongly supports the authorization to ship 
two personal vehicles in conjunction with Permanent Change of 
Station (PCS) moves, along with long overdue increases in PCS 
mileage rates. Adequate programs, facilities and support 
services for personnel impacted by Base Closure and Realignment 
(BRAC) actions, rebasing and global repositioning is very 
important. And the coalition notes with concern the 19-plus 
percent reductions in military construction and family housing 
accounts in the 2011 budget request.
    Finally, the coalition remains committed to adequate 
funding to ensure access to the commissary benefits for all 
beneficiaries. This is an essential benefit, and the Defense 
Commissary Agency is to be commended for highly cost-effective 
management of 255 stores stores in 13 countries.
    Thank you again for the opportunity to present our 
recommendations.

    STATEMENT OF MASTER SGT. MICHAEL P. CLINE, USA (RET.), 
EXECUTIVE DIRECTOR, ENLISTED ASSOCIATION OF THE NATIONAL GUARD 
  OF THE UNITED STATES, AND PRESIDENT, THE MILITARY COALITION

    Master Sergeant Cline. Madam Chairwoman, distinguished 
members of the subcommittee, we thank you for allowing us to 
present the views of our National Guard and Reserve members.
    I would like to take the opportunity to thank some of your 
professional staff members, especially Mike Higgins and John 
Chapla. They have always been open to sit down with us and talk 
to us about our concerns.
    Currently over 142,000 Guard and Reserve members are 
serving on active duty. Since 9/11, more than 752,000 Guard and 
Reserve members have been mobilized, including well over 
200,000 who have served multiple tours.
    Congress took the first steps in modernizing the Reserve 
Component Compensation System with enactment of the early 
retirement eligibility for certain reservists activated for at 
least 90 continuous days served since January 28, 2008. This 
change validates the principle that compensation should keep 
pace with service expectations and work as an inducement to 
retention and sustainment of the operational reserve force.
    For the near term, we have placed particular priority on 
authorizing early retirement credit for all qualifying post-9/
11 active duty service performed by Guard and Reserve service 
members, and eliminating the fiscal-year-specific accumulator 
that bars equal credit for members deploying equal periods 
during different months of the year.
    Congress must move forward in providing a reduced-age 
entitlement for retired pay and health coverage for all Reserve 
Component members. This is an age/service formula for outright 
eligibility if otherwise qualified at age 55.
    Further we urge repeal of the annual cap of 130 days of 
inactive duty training points that may be credited towards a 
Reserve retirement. We understand the financial burden, but you 
must also realize the burden on Operational Reserve members and 
their families.
    Yellow Ribbon readjustment--We urge the subcommittee to 
hold oversight hearings and to direct additional improvement in 
coordination, collaboration and consistency of Yellow Ribbon 
services. The Department of Defense (DOD) must ensure that 
state-level best practices such as those in Maryland, Minnesota 
and New Hampshire are applied for all Operational Reserve Force 
members and their families.
    The Guard and Reserve GI bill--We urge the subcommittee to 
work with the Veterans Affairs Committee to include title 32 
Active Guard and Reserves (AGRs) in a post-9/11 statute.
    Based on the DOD and services' 10-year record of 
indifference to the basic Selected Reserve GI bill under 
chapter 1606, 10 United States Code (USC), we recommend either 
restoring Reserve benefits to the 47 or 50 percent of active 
duty benefits or transferring the chapter 1606 statute from 
title 10 to title 38 so that it can be coordinated with other 
educational benefit programs in a 21st century GI bill 
architecture.
    We also support assured academic reinstatement, including 
guaranteed reenrollment for returning operational reservists.
    That concludes my statement. I will be happy to answer any 
questions you may have. Thank you.

STATEMENT OF DEIRDRE PARKE HOLLEMAN, ESQ., EXECUTIVE DIRECTOR, 
  THE RETIRED ENLISTED ASSOCIATION, AND COCHAIR, TMC SURVIVOR 
                           COMMITTEE

    Ms. Holleman. Chairwoman Davis, Ranking Member Wilson, it 
is an honor to speak to you on our legislative goals concerning 
military retirees and military survivors.
    We urge you, once again, to end the unfair offset of 
military retired pay by Veterans Affairs (VA) disability pay. 
We are grateful for the great strides that have been made in 
ending this terribly unfair practice. There are two groups of 
valiant retirees who are not getting the relief that you 
ordered for the others. One group is those longevity retirees 
with VA disability of 10 to 40 percent. The second are those 
service members who were forced to medically retire with less 
than 20 years due to an injury or medical condition that is not 
deemed combat-related under the Combat-Related Special 
Compensation (CRSC) program.
    Both policies should be immediately ended. But the 
President for the second year has proposed in his budget to end 
the offset for medical retirees. To have the Administration 
propose a change that in the past was a goal of only you and 
Congress is an historic opportunity. We strongly urge you to 
join the President in this laudable goal and end the offset for 
the medical retirees now.
    You will hear more, but it is also clearly time to finally 
end the unfair and unwise dollar-for-dollar Survivor Benefits 
Plan-Dependency and Indemnity Compensation (SBP-DIC) offset. 
SBP, as, of course, you all know, is an employment benefit, 
while DIC is an indemnity program for survivors of those who 
died because of their service in the military. Legislation to 
end this offset is pending in both Houses of Congress. Now that 
Senator Bill Nelson's S. 535 has 55 cosponsors and 
Representative Ortiz's H.R. 775 has 325 cosponsors, it is clear 
that a majority of the Members of Congress agree that this 
offset should now end.
    There are other critical issues pending. We urge that you 
support Representative Walter Jones' H.R. 613. It would 
authorize the retention of the full month's retired pay of the 
last month of a retiree's life. Presently Defense Finance and 
Accounting Service (DFAS) removes the month's retired pay from 
the retiree account and returns the prorated share to the 
survivor. This method can cause confusion and even bounced 
checks during a tremendously tense and sorrowful time. This 
bill would stop this and treat military retirees and survivors 
the same way as disabled veteran survivors are treated 
concerning their disability payments.
    The Uniformed Services Former Spouses' Protection Act 
desperately needs improvement. While some organizations want 
dramatic fundamental changes, and other groups adamantly do 
not, it truly is time that we had a hearing on this emotional 
issue. There are several improvements that DOD has supported 
for years that could be passed this year. A full list of our 
suggestions can be found in our written testimony.
    Finally, we urge that DFAS be allowed to make SBP payments 
into a special needs trust. Presently they may only pay SBP to 
a person. This means that a permanently disabled survivor 
cannot make use of this state-created legal device that allows 
a disabled person to protect their eligibility for Supplemental 
Security Income (SSI), Medicaid, and state means-tested 
programs.
    Thank you very much for your time, and I am happy to answer 
any questions.
    Mr. Strobridge.

STATEMENT OF COL. STEVEN P. STROBRIDGE, USAF (RET.), DIRECTOR, 
GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA 
         (MOAA), AND COCHAIRMAN, THE MILITARY COALITION

    Colonel Strobridge. Madam Chair, Congressman Wilson, 
distinguished members of the subcommittee, my portion of the 
testimony will focus on health care and wounded warrior issues.
    The primary issue for all beneficiaries is access, and the 
primary threat to access continues to be the perpetual threat 
of major cuts in Medicare and TRICARE payments to doctors. On 
national health reform, the principal issues are ensuring 
protection in military-unique health benefits and protection 
from taxation on the value of those benefits. And we are very 
grateful for the subcommittee's and the full committee's 
support on both of those needs.
    On TRICARE fees, we are grateful that the Administration 
proposed no fee increases this year, but without congressional 
action, the TRICARE standard outpatient deductible will be 
increased administratively by more than $110 per day as of 
October 1. Last October, the subcommittee acted to stop that 
change in conference. We urge you to put a provision in law 
capping the outpatient deductible at the current $535 a day, 
which the coalition believes is plenty high enough.
    We also ask you to put a sense of Congress provision in the 
Defense Authorization Act highlighting the importance of 
military health benefits, and offsetting the adverse conditions 
of service, and recognizing that military people pay large 
upfront premiums through decades of service and sacrifice over 
and above their cash fees.
    On wounded warriors we are concerned that the change of 
Administration has left many senior positions vacant for more 
than a year, and that close joint oversight previously provided 
by top leaders of both departments has been delegated and 
diffused back along agency-centric lines. We urge 
revitalization of the Senior Oversight Committee or a similar 
joint agency staffed with senior officials with full-time 
oversight responsibilities for seamless transition.
    We appreciate the subcommittee's effort last year to 
provide caregiver benefits on a par with what is provided by 
the VA. The Veterans Affairs Committees are now finalizing 
significant upgrades for caregivers, and we hope you will 
reestablish comparability of DOD programs once that happens.
    Regarding psychological health, Post-Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), we know there 
are many initiatives to enhance access to care and counseling 
and to remove the stigma from seeking care, but many who suffer 
the after-effects of combat continue being barred from 
reenlisting or separated for other reasons because service, 
disciplinary and administrative systems are less flexible and 
resilient than we are asking our troops to be. We hope the 
subcommittee will continue its efforts to protect returnees 
from these secondary effects of war.
    Madam Chair, that concludes my remarks.
    [The prepared statement of The Military Coalition can be 
found in the Appendix on page 33.]
    [The prepared statement of The Fleet Reserve Association 
can be found in the Appendix on page 76.]
    [The prepared statement of the Enlisted Association of the 
National Guard of the United States can be found in the 
Appendix on page 86.]

  STATEMENT OF SARAH JENNINGS, CHIEF, DEFENSE, INTERNATIONAL 
      AFFAIRS, AND VETERANS' AFFAIRS COST ESTIMATES UNIT, 
                  CONGRESSIONAL BUDGET OFFICE

    Ms. Jennings. Chairwoman Davis, Congressman Wilson and 
members of the subcommittee, I appreciate the invitation to 
appear before you today to discuss the budgetary treatment of 
direct spending programs.
    My statement is based on CBO's understanding of the laws 
and rules used to enforce the budget and the agency's 
experience with cost estimates that involve direct spending.
    Direct spending is the budget authority provided by laws 
other than appropriation acts and the outlays that result from 
that budget authority. Annual appropriations acts generally set 
specific amounts that can be obligated for each program in a 
particular year. The laws governing direct spending, however, 
usually specify benefit formulas and eligibility criteria that 
determine spending over time and require no further action by 
the Congress in future years. Direct spending, which is also 
known as mandatory spending, includes programs such as Social 
Security, Medicare, and Medicaid. Military Retirement is also a 
mandatory program; therefore, any change in spending for that 
program caused by an authorization bill would affect direct 
spending.
    Proposed changes to direct spending programs receive 
special scrutiny under various budget enforcement rules. The 
House has a pay-as-you-go rule specifying that any legislation 
that would increase spending or decrease revenues over certain 
time periods is subject to a point of order unless such costs 
are offset within the bill.
    In addition, the Congress recently enacted the Statutory 
Pay-As-You-Go Act, which automatically will reduce mandatory 
spending when legislation, on a cumulative basis over the year, 
would increase direct spending or reduce revenues.
    Most spending related to national defense, which totals 
$700 billion in fiscal year 2010, is discretionary and 
therefore is allocated annually to the Appropriations 
Committees. Spending for mandatory programs related to defense 
is mostly under the jurisdiction of the House and Senate Armed 
Service Committees. The two largest mandatory programs under 
the House Committee on Armed Services (HASC) jurisdiction are 
Military Retirement and Medicare-Eligible Retiree Health Fund, 
which includes the TRICARE for Life program. Together those two 
programs pay about $60 billion in benefits each year.
    When a bill or amendment would increase direct spending, 
the authorizing committee has several options to offset the 
costs; however, each of those options has its own set of 
obstacles.
    First, the authorizing committee can find an offset within 
the direct spending programs under its jurisdiction.
    Besides Military Retirement and Retiree Health, the HASC 
also has about $3 billion in other programs under its 
jurisdiction, although this includes additional benefit-type 
programs such as benefits for disabled atomic energy workers.
    A second option would be to increase federal revenues 
through changes in tax policy. Unfortunately, the HASC does not 
have jurisdiction over changes to the Tax Code. Those changes 
are under the purview of the House Committee on Ways and Means 
and the Senate Committee on Finance.
    A third possibility would be to increase federal receipts 
through the sale of federal assets. Identifying such assets can 
be difficult, however, and may not produce receipts that are 
large enough to cover the benefits desired.
    During the committee's consideration of the defense 
authorization proposals, there are often proposals that seek to 
offset increases in direct spending with reductions in 
discretionary authorizations found elsewhere in the bill. 
However, such authorizations provide guidelines for future 
appropriation action, but do not result in spending until 
appropriations are provided in the annual Defense 
Appropriations Act, which is a separate piece of legislation. 
Consequently, reductions to amounts authorized in the 
authorization bill for discretionary appropriations cannot be 
used to offset increases in direct spending proposed in other 
parts of the bill for purposes of enforcing the congressional 
budget resolution or pay-as-you-go procedures.
    The House Committee on the Budget is the official 
scorekeeper for the House of Representatives and is responsible 
for enforcement of the congressional budget resolution within 
the House. Questions about spending jurisdiction, budget 
enforcement procedures, or options for dealing with legislation 
that would increase direct spending should be addressed to that 
committee.
    This concludes my opening statement. We have submitted a 
copy of our official statement to the committee for inclusion 
in the record. I thank you for the invitation to appear before 
the committee, and I will try to answer any questions you may 
have.
    Mrs. Davis. Thank you very much.
    [The prepared statement of Ms. Jennings can be found in the 
Appendix on page 95.]
    Mrs. Davis. Thank you to all of you for your presentations.
    I think that, Ms. Jennings, I appreciate your trying to lay 
out why this is such a difficult task and why the Congress has 
struggled with this over a number of years, despite the fact 
that I think people really would like to be able to move 
forward, and we have certainly in the number of areas, 
incrementally, for certain, but nevertheless trying to address 
these issues.
    Perhaps I might just start with asking you from--and I know 
that this--none of this is new to any of you; you understand 
the difficulties involved. But what would you suggest? Where do 
you think we ought to be doing as we address these very 
difficult issues? Any thoughts about how? It is not so much in 
the prioritization, I think, as much as almost the mechanics, 
since while we are authorizing, we don't have the ability to 
take out a plane or an aircraft carrier to make this happen. 
And so, Colonel.
    Colonel Strobridge. I think, Madam Chair, we are very--we 
empathize with the subcommittee on this. We realize the 
challenges that you face in trying to identify mandatory 
spending offsets. I think we are fortunate that at times in the 
past there have been things that have popped up unexpectedly 
that created opportunities. We are very appreciative about the 
effort last year to make some progress on the SBP offset as a 
result of some funds that came available from the tobacco bill.
    One of the things that the coalition prides itself on is 
working with the subcommittee and the staff, recognizing that, 
limited though it may be, any amount of mandatory spending 
opportunity that you have, we are always more than willing to 
try to work with you to identify what could be done within that 
amount. Obviously, we would love to see--as Congressman Wilson 
acknowledged, there have been occasions when the rules get 
waived, and the rules have been waived, frankly, in candor, on 
a lot of military things, including TRICARE for Life and GI 
bill. So we have benefited from that in the past.
    I think it is disappointing that when we have things that 
don't cost that much relatively compared to some of the other 
things, such as the Chapter 61 concurrent receipt and SBP-DIC 
offset, that we can't find a way to address those relatively 
modest issues. And maybe it is because they affect a relatively 
small number that they don't get the publicity for some of the 
bigger things, but to us we feel an obligation to continue 
making that case: The person who is disadvantaged significantly 
is no less disadvantaged because there is a small number of 
them.
    Mrs. Davis. Thank you.
    Master Chief Barnes. Madam Chair, thanks for the question 
here, and, again, to reiterate, we appreciate Chairman 
Skelton's and your leadership and the full subcommittee's great 
work on pay and benefits. The past 10 years have been really 
significant in this arena, and it is very much appreciated.
    Just an observation about the percentage of funds that are 
allocated to the defense budget. During time of war, 
historically it has been much lower than at different periods 
in the past. The coalition is supporting a higher benchmark, 
perhaps at five percent of Gross Domestic Product (GDP), which 
relates to that.
    And regarding the challenge of prioritizing these issues, 
as you have heard the four of us summarize here, and also we 
appreciate the hearing last week on family readiness issues and 
speaking specifically to those challenges, but I think 
balancing across, we try to look for balance here and equity. 
And there are some issues that we are speaking to that have 
been inequities for significantly longer periods than some 
others.
    I would echo Steve's comments with regard to the challenges 
with the funding and a pledge to try to work with you and help 
identify. I am not sure that I have helped much there. But I 
just wanted to clarify the fact that we are very mindful and 
appreciative of the pay benefit and enhancements, but also to 
reiterate the fact that the percentage of funding for DOD 
during a wartime is significantly lower than it has been in 
past periods of wartime.
    Master Sergeant Cline. Madam Chairwoman, the Guard and 
Reserve are unique. A lot of the benefit programs that are in 
place for them, even though they have improved over the last 10 
years, are still relics of the Cold War. And as we rely more 
and more on the Guard and Reserve to be an operational force, 
we have already been told from fairly high-ranking officers 
that the Guard's mission in Iraq is going to continue well into 
the future. We will become the peacekeepers in Iraq. Not only 
that, but we have the Sinai mission, Africa, Bosnia, you name 
it, we are there, along with the Afghan mission. And 90 percent 
of the air sovereignty of the United States is flown by Air 
National Guard pilots. And if we don't do something to retain 
these people, and as the economy gets better, we are going to 
start losing real good people. And then what is going to happen 
is recruiting and retention budgets are going to go up, and 
then we are going to have to spend $100,000 per soldier or 
airman to get them retrained.
    So we have to find a balance. We have to bring the 
Operational Reserve Force into the 21st century with pay and 
benefits. And when we--when Congress gave the Reserve 
retirement program, they started it on January 28 of 2008. You 
said to those people that served from 9/11 to that time, your 
service doesn't count, and yet you still want them to go. We 
have units right now in Minnesota that are on their fourth 
rotation to either Iraq, Afghanistan, or Bosnia, and these 
people are being taken away from their civilian jobs. They are 
losing their 401(k)s, putting stress on the families. 
Bankruptcy is becoming an important thing in the Guard and 
Reserve community.
    So things have to change. We realize it is stretching the 
budget, but it is not uncommon to see the rules waived to 
provide things. We have seen it with the GI bill. We have seen 
it with TRICARE for Life.
    Thank you.
    Ms. Holleman. To reinforce what particularly Steve has 
said, when I first had the honor to come here and start working 
on these issues, it was 1997, and I started SBP-DIC. It is good 
I am cheerful by nature because it just keeps coming. And 
people who train me have been working on this a great deal 
longer.
    We do understand the byzantine difficulties of getting 
through mandatory funding on this issue, but as Steve said, 
part of the problem is that it is a smaller group than some of 
the others, TRICARE for Life and the GI bill. But they have 
been massively disadvantaged. And as difficult as it is, and 
how appreciative of the trouble we are asking you to go 
through, it is only fair. It is only right. And these ladies 
have given a huge amount.
    In the great scheme of things, as Steve said, when you 
consider the hugeness of our budget, it is not the type of 
money that indeed gets almost the focus that is part of the 
problem. When you are having mandatory funding for programs 
that are small amounts--I am working on one that looks like it 
is $5 million in it--and before someone else--and it is 
completely stymying us in a different committee because of 
this. But these ladies who you will hear more from should be 
the focus, and should be the focus before the end of the year, 
before the end of the war if this is at all possible.
    Mrs. Davis. Thank you. I appreciate that. This is 
difficult, as we know, and I don't hear any of you saying, 
well, then take it out of this other program; we don't think 
you should have moved ahead with the GI bill, or we don't think 
you should have done TRICARE for Life. So we know that those 
are tough issues. We will come back and we will talk about a 
few others.
    Mr. Wilson.
    Mr. Wilson. Again, thank you, Chairwoman Davis, for having 
the hearing, and I want to thank all of you. You really are 
making a difference by raising these issues. The question of 
the pay increase, the retirement points, the issue of the SBP-
DIC offset, the situation with access to TRICARE. What you are 
doing is you are raising consciousness with Members of 
Congress, but also the public. And so I just want to thank you 
for what you are doing.
    And also, on retirement, Sergeant Cline, I am so grateful 
for the National Guard and its service overseas. As a former 
guardsman myself, I have never been prouder of the Guard. And 
when I visit--I have been 11 times to Iraq and 9 times to 
Afghanistan--when I go, it is just startling to me to run into 
people and not know if they are active, Reserve, or Guard. And 
actually when I leave, sometimes somebody will point and say, 
he is a Guard guy or a Guard lady.
    And so it is just wonderful. It is so seamless except on 
what you pointed out, retirement. We note that the active duty 
has the 20-year retirement. Obviously that would be terrific if 
we could get that. But we have proposed a 25-year retirement. 
Then I have proposed a 25-year retirement based on 1 year for 
every 2 years after 20. We did make and you all made a 
difference on this; that there is credit now for overseas 
deployment of 90 days, every 90-day increment after January 28, 
2008. And so with that little wedge that has occurred, we now 
have a bill relative to--retroactive to 9/11.
    What is your view about retirement in general, but what we 
could do to promote recognition of the seamless nature of our 
Guard, Reserve, and active duty with retroactive to September 
11, 2001?
    Master Sergeant Cline. I think it would go a long way in 
solving any future retention problems that we have. Every time 
we have a deployment, we have soldiers that come home, airmen 
that come home, sailors and marines that come home, and their 
families said, I have had enough, I am tired of you being gone. 
The employers are starting to get riled up. These service 
members are looking at their civilian careers, and they are 
saying, every time I am deployed, I am losing money out of my 
401(k). I am losing part of my future retirement. The start in 
January 28, 2008, for retroactivity, that was a great start. 
Your idea of for every two years of service, you get a year 
early retirement----
    Mr. Wilson. Over 20.
    Master Sergeant Cline. I have been doing this for 21 years, 
and for 21 years we have been trying to get the age 55 
retirement. Every place you go--in fact, I talked to a group of 
chief master sergeants yesterday, and that is the first thing 
out of their mouth is, the retroactivity or the early 
retirement, when are we going to see this?
    And unfortunately, the public doesn't understand mandatory 
spending and discretionary spending. When they see $750 billion 
given to banks and automakers or $3 billion in three weeks to 
clear car lots, $1 trillion for health care, they don't 
understand that it is a different pot of money. We do because 
we work it every day. We try to explain it to our members. But 
they are the taxpayer. They are the voter. They are sitting 
there saying, hey, I have gone, I have done my service, but you 
are not recognizing me. I have rotated twice before January 28, 
2008, and you are not recognizing my service? It is like you 
are sticking them in the side with an ice pick.
    Mr. Wilson. You say you have been working on this 21 years. 
Your enthusiasm is infectious, and so you are not wearing out. 
This is good. And the same for Ms. Holleman.
    And I can't imagine you have been working on these issues 
for so long, but we need to keep pressing, because last week 
Dr. Stanley testified that the Department of Defense continues 
to oppose the repeal of the widow's tax, that is, the required 
offset between the annuities received from the Survivor Benefit 
Plan and the Veterans Administration payment for the dependency 
and indemnity compensation, because repeal would, quote, 
``create inequity.'' The inequity would be that a select group 
of survivors would receive two annuities, while survivors of 
most military retirements would receive only one.
    What do you think about this rationale? And again, I 
appreciate your active involvement.
    Ms. Holleman. Well, I don't agree with that rationale. I 
was there when it was said, so I am not wildly surprised this 
moment about it.
    When I first started, it took me a long time to really 
believe that I understood the SBP-DIC offset. Now, perhaps this 
was just because I had a different non-Federal Government 
background. But the idea of offsets, these seemed to a lawyer 
completely different programs; not just different departments, 
but completely different purposes. One obviously was economic, 
an employee benefit, one that was paid for in large part, and 
one that we wanted to reinforce. We want people to do this. We 
want them to plan ahead. So much of the public focus now is 
asking people to plan ahead, trying to make it possible for 
them to take advantage of all the changes, or to do that, to 
have the retiree make those plans for protection of their loved 
ones.
    The DIC is an indemnity. That is what it says. It is not an 
employee benefit, it is a benefit--if you call it a benefit, it 
is to indemnify people for a loss. It is a totally different 
purpose. And I hardly think--I think failing to do that is what 
is unfair, not the other way around.
    May I also say just to add, so many of the improvements--
and I will say and want to reinforce how many improvements have 
happened to the greater military families in the last several 
years, and we are very grateful for them. But they do go back 
to September 11. Almost all of them have gone back to September 
11. So may I reinforce Sergeant Cline's emphasis that really 
the 90-day active duty program should at least go back to 
September 11? Then they would feel that they are being treated 
the same as beneficiaries in many other military programs.
    Colonel Strobridge. Congressman Wilson, if I could just add 
to your comment about the DOD opposition. Back in 1985, the 
Department of Defense opposed giving dental benefits to active 
duty family members. In 2001, the Department of Defense opposed 
TRICARE for Life. Until last year the Department of Defense 
opposed anything on concurrent receipt. In that vein, the 
Department of Defense has been the wallet, this subcommittee 
has been the conscience. And the conscience has won over time, 
and I am very sure that at some point, just as has happened in 
the past--the Department of Defense now thinks family dental 
benefits are wonderful, TRICARE for Life is wonderful, 
concurrent receipt is the right thing to do--there will be a 
point in the future when they say providing dual SBP-DIC was 
the right thing to do, and we will try to forget that they ever 
opposed it.
    Mr. Wilson. And I agree with the calm rationale that you 
provide.
    One final question for Colonel Strobridge, the question 
that we have about the TRICARE, and certainly Veterans of 
Foreign Wars (VFW) has been so concerned. The Senate health 
care reform bill does not explicitly define the TRICARE program 
as meeting the minimum essential coverage standard, nor does 
the Senate bill specifically leave the Secretary of Defense 
with sole control over the defense health program. My read is 
that the Secretary of Health and Human Services has as much 
control over defense federal health programs as does the 
Secretary of Defense. The White House in August 2009 asserted 
that the final health care bill would include these measures. 
Would you support efforts to make the final bill more explicit 
on both of these points?
    Colonel Strobridge. Well, when the Senate bill first came 
out, sir, we identified that as a potential concern. We spent a 
lot of time talking with the Senate Budget Committee staff 
about it. The Senate Budget Committee staff believes that even 
with the current language, there is no way that TRICARE would 
ever be deemed as not qualifying. We said it would be very nice 
to make that explicit, would you do that? At that at that time 
when the Senate was passing, the rationale we got was this is 
the 11th hour; if we make this change, I have 500 people lined 
up saying, okay, you made this one, I want to make mine, too. 
And they assured us it would get taken care of.
    Now, over on the House side, as everyone very well knows, 
Chairman Skelton introduced a bill to make that explicit. We 
have learned from Senator Webb that Senator Webb has introduced 
an identical bill on the Senate side. It has gotten very strong 
bipartisan support. We have talked with the Budget Committee 
staff again, and they assured us that this is going to come up; 
it is going to get passed unanimously like it did in the House.
    Our view is we know that everybody in the Administration, 
everybody in the House, everybody in the Senate, people of both 
parties all want the same thing, and that is to make sure that 
TRICARE beneficiaries and VA programs are protected. We are 
happy to work with anybody and everybody to make sure that 
happens.
    Mrs. Davis. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Madam Chair.
    Thanks to the witnesses for being here today.
    Master Sergeant Cline, I have got to work with you on the 
spelling of your name, but it is nice to have you with us here 
today. And I appreciate the shout-out for members of the 
Minnesota Guard. The Red Bulls have just been serving and 
serving and serving. And I visited with them in Bosnia, and I 
visited with them in Iraq, and they are being tasked very 
heavily.
    And we all know on this subcommittee and in the Armed 
Services Committee and, I think, mostly in Congress, we know 
that we have shrunk the size of the active forces too small, 
and we are leaning too heavily on the Reserve Component, and so 
you are getting those families having to go back and forth. And 
they are not on active duty except when they are mobilized, so 
they do have that challenge of moving back and forth between 
civilian employment and mobilization.
    And I think this subcommittee and the Congress has been 
working pretty hard to try to make some of those adjustments--
because, as you point out, if we are going to treat them like 
they are active duty, if we are going to treat them and use 
them like they are part of the operational force and not a 
strategic reserve, then we have to start compensating them for 
that. But as the discussion has been, we are working in a box 
here.
    And so, Ms. Jennings, I want to go back to you and make 
sure we are all clear about that this. Once the President's 
budget has been submitted, and the Congress has acted and 
passed or deemed or put a budget into place, we then are--we 
are forced to live inside that box, because, as you say, you 
can't rely on changes to discretionary spending. You can't 
cancel--I am not suggesting we do this, by the way--we can't 
cancel an aircraft carrier and suddenly have more personnel 
money. So the battle for a lot of the issues that you are here 
talking to us about needs to occur right from the beginning 
when the President submits his budget as the starting point. If 
you are going to shift that money, you have got to do it at 
that that point, and then Congress has got to make those 
adjustments and shift the money from education or from Health 
and Human Services or from an aircraft carrier before they get 
put into these boxes. Is that correct?
    Ms. Jennings. Partially. You still have the concern about 
direct spending. So even if the President requests an increase 
in direct spending program in his budget, that will not get you 
past the PAYGO rules. You will still have to find an offset 
somewhere.
    Mr. Kline. Who will have to find the offset?
    Ms. Jennings. Whoever has proposed----
    Mr. Kline. If the President has prepared the budget, 
presumably he has provided the offset, because he has decided 
to spend more money on direct spending for concurrent receipt 
than he has for Health and Human Services or education or labor 
or something. Hasn't the offset already been provided when he 
submits that budget?
    Ms. Jennings. In this year's budget he submitted a proposal 
relating to concurrent receipt, but he did not include any 
offsets for it.
    Mr. Kline. I understand. That budget has already been 
presented, so too late. That one is done, and now Congress is 
going to come forward and put forth the budget.
    But my point is that when the President submits his budget 
annually, when the new budget comes forward, if at that point 
as a starting point those shifts have been made, then the 
PAYGO, that unfortunate terminology, is already taken care of, 
and then Congress can either pass the President's budget or 
make its adjustments, and then there is a budget that is 
provided a different box for this subcommittee to work in. Is 
that correct?
    Ms. Jennings. If he shifts money from a mandatory program, 
another mandatory program, over to these when he requests his 
budget, and the Congress enacts those changes, then, yes, that 
would take care of it.
    Mr. Kline. Thank you. I think the people, the panel here, 
sort of know, because they have been working at this, as has 
been pointed out, for a long time, that once this subcommittee 
gets the box, it is very, very difficult, and the subcommittee 
cannot change the rules. Rules can be changed, as has been 
pointed out, but it is very frustrating, I think, for many of 
us. And I have been on the Personnel Subcommittee for most of 
the years I have been here, and it is always frustrating for us 
to try to make adjustments and meet some of the requests that 
you have brought forth over the years to address survivor 
benefits and concurrent receipt and lowering retirement age for 
the Guard because it puts us out of that box.
    I yield back.
    Mrs. Davis. Thank you, Mr. Kline.
    And perhaps following up with my colleagues as well, one of 
the things I didn't ask you--and I know this is a really 
difficult question, and I actually don't expect an answer from 
you, but I wonder if you have some thoughts about it without it 
being conclusive on your parts. Is there a program that you are 
aware of within the budget that you actually think perhaps is 
not working as it should and that we ought to look at?
    Colonel Strobridge. Madam Chair, I think probably if that 
is aimed at mandatory spending programs, which I am presuming 
it is, I think we face the same difficulty that you do. It is 
very difficult to say we need to cut back on TRICARE for Life, 
or retirees deserve a smaller Cost of Living Adjustment (COLA). 
You can't get smaller than zero, I guess, but those trading--
cutting one group's earned benefit to fund another group's 
earned benefit is not a route that we think is appropriate.
    Master Chief Barnes. Madam Chairman, just an observation in 
the discussion here and the challenges we are facing, there is 
an interconnectivity among all of these benefits. And I 
referenced balance and the challenge. Looking at active issues 
compared to Guard/Reserve issues, retiree survivor issues, 
veterans issue, different oversight, whatever, but there is a 
connectivity with all of this, and it is related to service to 
our country. And I think that is an important part.
    The second point to follow on the discussions about health 
care, there is tremendous anxiety in our membership and our 
sister organizations' memberships about the impact of the 
health care reform. There is carryover from the past based on 
commitments that were made for service to our country that were 
not fulfilled. That has been echoed here in some of the 
discussions on some of these other issues, how we are taking 
care of our widows and so on. The tremendous back and forth in 
using the Internet and communications, we are responding to a 
tremendous number of messages about misinformation, 
misunderstanding, inaccurate information about CBO options 
which have not been introduced as legislation. We try to be 
reassuring and whatever, but a very, very challenging time. And 
I just want to say that because it is related to--it is very 
timely, given everything that has been going on here with 
regard to health care reform.
    But the key aspect of the TRICARE for Life, in particular, 
beneficiaries and TRICARE beneficiaries, are Medicare 
reimbursement rates. I don't want to get too far into this, but 
we are talking about a full range of issues here. And many of 
these issues impact everyone, and many of the issues impact 
certain groups and whatever.
    But I will just wind up by saying there is an 
interconnectivity in here, and in looking at these with the 
challenges we face, I think it is important to keep that in 
mind and try to identify resources, the challenges, 
understanding the challenges and how difficult that is. But 
that is a key point, and I just wanted to, for the record, 
mention the anxiety that is out there with regard to the health 
care reform, and we appreciate the chairman's and your 
leadership on this trying to clarify.
    Mrs. Davis. I appreciate that. Getting good information out 
there, accurate information is difficult. We have tried. And we 
are in a new era now where it is hard to control all the 
information that is out there for everybody, and it becomes 
just a massive task. I appreciate the fact that you are getting 
a lot of that, that it is coming your way; and I would 
certainly hope that we could make sure that the information 
that you have is always accurate.
    I know we had a situation that occurred just the other day 
where we had some local organizations that had no idea what 
their national organization was saying. Nor did they 
necessarily think that it was an appropriate message. And so we 
have to work with that.
    One other question along these lines. With all of you here, 
it is so difficult--and you are not vying against one another. 
If we were to find an offset, if we were to find a sizable 
enough offset that we could work with, what would you suggest 
among the competing needs that you all represent? How do you go 
about that? Is it better to have little pieces or a big piece 
with the hope that the next big piece comes along?
    Colonel Strobridge. As you can imagine here, we are here 
representing 34 associations----
    Mrs. Davis. Of course.
    Colonel Strobridge [continuing]. Many of which have 
competing priorities. But one of the good things about the 
coalition is that, over the years, we have been able to do 
precisely that. If we know what the bogey is that we have to 
meet, we work together to try to come up with a consensus on 
what the right thing to do is. I wouldn't presume to try to 
speculate what that would be now, but I am confident that we 
could get a consensus within the coalition on priorities to 
address to whatever extent the subcommittee is able to do that. 
And we have done that in the past.
    Mrs. Davis. Yeah. I certainly appreciate that. We really 
look to you all. You are a great resource, all of you.
    Mrs. Holleman. We certainly have done it in the past. The 
most dramatic one was starting with concurrent receipt that I 
was involved with, and it started with little steps and kept 
growing and we hope will continue to do so. But we are able, we 
have been able as a group to do that.
    Mrs. Davis. Thank you.
    Some people would question whether we don't just need to 
increase the size of the pot. I think what you are saying is 
increase the size of the defense budget or share responsibility 
across the country actually when it comes to these issues. It 
certainly would behoove all of us to feel that there is a 
responsibility there for everybody. And that raises the 
question of additional revenues, which you know that people 
don't even want to go and enter into that discussion. It is a 
difficult one. But we certainly appreciate that.
    One just follow-up question, and then we will go onto the 
next panel, is that you have all I think identified the problem 
with mental health today among the men and women who are 
serving and even among providers who are serving, the members 
who are serving. And I am wondering if there are any particular 
ideas that you have or that haven't been expressed that you 
care to articulate about what your organizations might do to 
help contribute to our facing this issue as a country.
    Sergeant Cline. I think one of the problems that we face, 
especially in the Guard and Reserve community, is the fact that 
the majority of our veterans returning live in rural areas and 
that access is not there for them. You know, they don't live 
around active duty military bases, where they can get care 
easily. That is a big problem that faces the Guard and Reserve.
    Mrs. Davis. Thank you.
    Colonel Strobridge. One of the things that the Military 
Officers Association does every year is we have--for the last 
three years we have had a Wounded Warrior Forum, a day-long 
forum where we have had Members of Congress come over, 
congressional staffers, people from DOD, VA, and the private 
sector to talk about those very things.
    And I think the big challenge is, as I alluded to in my 
oral remarks, our systems have not caught up with the 
situations our service members and their families are facing. 
We have a terrible situation with people who are reluctant to 
come forward to get treatment because they are afraid it will 
affect their careers. They are afraid it will affect their 
security clearance. They are afraid it will affect the way 
their peers view them.
    We talk a lot about--the senior leaders talk a lot about 
destigmatization and how important it is, but when you get down 
to that unit and organizational level, there are a lot of 
impediments for that to happen.
    We are also extremely concerned that the systems aren't 
talking to each other. After the Walter Reed problem, we get a 
lot of very senior officials involved, we had a lot of studies, 
and they all basically said the same thing, we need to reorient 
our bureaucracies.
    And this subcommittee has struggled very hard to do that. 
But even on the congressional side with the House and Senate 
Armed Services Committees, with the House and Senate Veterans 
Affairs Committees, with the Appropriations Committees, a lot 
of people have different views and a lot of people have 
concerns about where money is going to come from. And it 
becomes a real challenge to make sure not only that these 
programs are administered properly by DOD and VA, who in a lot 
of cases have gone back to their offices on their respective 
sides of the river and aren't working together that well 
anymore. When you combine that with the jurisdiction issues and 
the funding issues, we really have a lot of people who are left 
facing a lot of well-intended programs that aren't working well 
together. And that is a huge problem.
    To us, a big priority is to get something back like the 
Senior Oversight Committee, where you actually have some full-
time people in charge of trying to make that thing work. 
Unfortunately, the Senior Oversight Committee has been 
marginalized at this point and a lot of the functions have been 
taken back by service-specific people and they are not even 
meeting anymore. That is difficult.
    Mrs. Davis. Thank you. We will certainly take that under 
advisement. I appreciate that.
    There are a lot of programs out there, and my concern is 
that they haven't been talking to each other as much. And it is 
difficult then to determine what is really working out there. 
We have to do a better job at that.
    Thank you all so much. We certainly appreciate your 
presence here, your candor; and we look forward to working with 
you on these really tough issues. Thank you very much.
    If the next panel could come up, I just want to ask 
unanimous consent to enter into the record the written 
statement of the Reserve Officers Association and the Reserve 
Enlisted Association, their statement. Thank you very much.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mrs. Davis. Now we have Ms. Suzanne Stack, a member of the 
Gold Star Wives, and Ms. Margaret McCloud, also a member of the 
Gold Star Wives.
    I know that you have had an opportunity to participate in a 
panel by yourselves before. I guess in some ways it has been 
kind of unique. And I know that Mr. Wilson particularly 
requested that, and we look forward to your testimony. Thank 
you.

   STATEMENT OF SUZANNE STACK, MEMBER, GOVERNMENT RELATIONS 
                   COMMITTEE, GOLD STAR WIVES

    Ms. Stack. Thank you so much.
    Good morning, Chairwoman Davis, Ranking Member Wilson, and 
the subcommittee members. Thank you for this very unique 
opportunity to come before you today. My name is Suzanne Stack, 
and I am a member of the Gold Star Wives Government Relations 
Committee.
    Easter Sunday, April 11th, 2004, my husband, U.S. Army 
Special Forces Sergeant Major Michael Stack, a 28-year soldier 
and a native South Carolinian, was involved in multiple 
encounters with insurgents in the Anbar Province, Iraq. The 
last encounter brought his team into direct conflict with 
insurgents hidden in the highway overpass. My husband drew fire 
to himself, allowing the three remaining vehicles to move to 
safety. An insurgent rocket-propelled grenade (RPG) explosion 
ended the fire fight, and my husband was dead.
    Many positive changes have occurred in military survivor 
benefits since I became a military widow and member of Gold 
Star Wives in 2004. But the biggest priority for the last 11 
years or maybe longer is the elimination of the SBP/DIC offset, 
which affects 54,000 widows and widowers intimately.
    H.R. 775 has 325 cosponsors as of today. The offset impact 
often means these survivors can't pay their utility bills, rent 
payments, or afford needed groceries or medication.
    An active duty Marine sergeant with 11 years in service 
killed in Iraq leaves his widow receiving an SBP annuity of $14 
after the offset. A widow in Florida of a retired Air Force 
tech sergeant finds her SBP completely offset by the SBP/DIC 
offset. A Virginia widow whose National Guard husband was 
killed in Afghanistan receives only a $4 SBP annuity due to the 
offset.
    A retired Air Force officer very close to me purchased SBP 
for his wife at retirement and paid into the plan for 30 years. 
He then learned that if he should die as a result of a service-
connected illness, his wife would be subject to the offset.
    The offset is more often an unwelcome and unknown surprise 
to survivors receiving both SBP and DIC.
    Many solid arguments are presented in favor of the SBP/DIC 
offset elimination. We reference them in our written statement. 
However, the one most perplexing to Gold Star Wives is why 
54,000 widows and widowers remain affected by the offset when 
others are not. Children, parents, former spouses, and other 
designees who receive SBP do not suffer the SBP/DIC offset. 
Surviving federal civilian employees who receive benefits from 
their Federal Civil Service Survivor Benefit Plan and DIC do 
not suffer this offset. Remarried military widows and widowers 
who remarry after age 57 do not suffer this offset. Ms. Kozak 
of Jacksonville, Florida, needs to receive her SBP in full but 
does not want to start dating and remarry at age 85.
    We again bring this issue to you today and ask you to honor 
our service to this great Nation by eliminating the offset once 
and for all. Please sign the discharge petition introduced on 
March 15th by your colleague and our friend, Congressman Walter 
Jones of North Carolina. Please do not let another military 
widow die lacking in needed necessities and disappointed in our 
government.
    Thank you for this unique opportunity to come before you 
and share my story and others. I welcome any questions you 
might have.
    [The prepared statement of the Gold Star Wives of America 
can be found in the Appendix on page 102.]

     STATEMENT OF MARGARET MCCLOUD, MEMBER, GOLD STAR WIVES

    Ms. McCloud. Good morning. I am Maggie McCloud, proud widow 
of Marine Lt. Col. Joseph Trane McCloud, who was killed in Iraq 
over three years ago.
    Thank you very much, Madam Chairwoman, Congressman Wilson, 
and members of the committee for allowing us to speak to you 
today regarding our personal narrative regarding elimination of 
the offset which affects 54,000 military surviving spouses, 94 
percent of whom are survivors of retirees who paid premiums for 
SBP, and 6 percent, like me, who are survivors of active duty 
deaths. My husband paid for it with his life, the retiree paid 
for it with premiums, and now we are both being denied it.
    As Suzanne has said and I will echo, Congress has set 
precedent in removing offsets to military retired pay such as 
the penalty for military retirees working as federal civilians, 
concurrent receipt of disability compensation and retirement 
pay for severely disabled retirees, and the Social Security 
offset to SBP at age 62.
    The President's budget restores full military retired pay 
to all other disabled retirees, and therein lies my confusion. 
Why can't we find the money to fund this offset, one that 
affects 54,000 military widows, if we are able to find the 
money to fund these other, most worthy benefits?
    We are told over and over again, year after year, that the 
issue is cost, not the principle, but the reality has been that 
finding the funding has not been a priority. Elimination of 
this widows' tax was included in the GI Bill of Rights for the 
21st Century. Congress acknowledged this inequity by creating 
the Special Survivors Indemnity Allowance. Additional money was 
found last year with the tobacco legislation, small progress 
for which we are grateful, but recognition of the injustice 
created by the offset.
    In explaining its opposition to removal of the offset, the 
Office of the Secretary of Defense (OSD) has stated an inequity 
would be created with one select group receiving two survivor 
annuities. There are already groups receiving two benefits: 
widows who remarry after age 57, widows like me who forfeited 
their SBP annuity to their children to ensure adequate 
resources to raise our families now, and surviving spouses of 
federal civilians.
    The vast majority of military retirees did not die of their 
service but, rather, they retired and went on to have second 
careers. My husband did not enjoy the opportunity to have the 
second career and help raise his children; and the DIC should 
be added to, not subtracted from, his retirement annuity.
    As it should, the Administration has shown its strong 
support for our military members and our veterans for whom the 
fighting has ended. Well, the fighting has ended for our loved 
ones as well, whether they fought on the beaches of Normandy, 
the jungles of Vietnam, the deserts of Iraq, or the countless 
other places where brave Americans have fought and died.
    But we, their survivors, are still struggling every day. 
And now I also have to answer such questions as, mom, does it 
hurt to drown? Why couldn't the Marines save daddy if they 
could save the others? And was I the last thing he thought of? 
These are the questions the families of the fallen have to face 
while carrying on and holding our families together.
    In conclusion, my family continues to support our military 
service members in any way we can. You need only look at my 
living room in December, when it was filled with Boy Scout 
popcorn to send to our troops, or currently the hundreds of 
boxes of Girl Scout cookies that I have yet to mail.
    It is very important to me to show our support for our 
military service members who willingly leave their families and 
lay their lives on the line every day to protect and defend our 
freedom. As a country, don't we have the responsibility to 
support their survivors when they don't come home or when they 
die later from that service? How can't our government find the 
money to fix this widows' tax?
    Thank you so very much.
    Mrs. Davis. Thank you very much.
    I want to just personally, and I know on behalf of the 
members of this committee, express to you our deep, long-time 
condolences for your losses and for what that has meant to your 
family and your children. It is hard to just think about what 
it would have been for them had that not occurred, had your 
sacrifices not been felt by your family, which is the closest 
of all those who knew your loved ones. And so I just want to 
let you know that that does make a great deal of difference, 
which is why we always appreciate the very articulate and 
passionate remarks that you bring to the committee. I want to 
thank you for that.
    Ms. McCloud. Thank you.
    Mrs. Davis. I wish I could answer all those questions for 
you. They are good questions, and I think that they are ones 
that we grapple with all the time.
    I am certainly not going to ask you where you would 
necessarily cut, but we know that that is an issue. And I think 
there is also an additional issue of shared sacrifice, that I 
know in talking to so many of our families that they haven't 
necessarily felt in the country. And that is an important issue 
that we all have to address.
    Mr. Wilson, I know you had a few specific questions.
    Mr. Wilson. I do.
    Again, thank both of you. The Gold Star Wives are such an 
extraordinary organization, the widows of members of our 
service who have given their lives. Every year you give us 
inspiration, and I want to join Chairwoman Davis in thanking 
you.
    I also have to tell you, you are making a difference 
getting the information out. The American people need to know 
what the widows' tax is. Ms. Stack, you did an extraordinary 
job explaining the net. That is horrifying to think that 
somebody would get a $4 check, a $14 check.
    We have a time constraint here, but I really am interested 
if you could, both of you, explain again what the Survivor 
Benefit Plan is briefly and who administers it, what its 
intent, and then the Dependency and Indemnity Compensation, who 
administers that. And then, without being totally specific, you 
take a number and then you subtract the number and then you 
come back. The American people need to know this.
    Ms. Stack. I will start. Thank you so much.
    It is hard to begin. The SBP is an annuity. It is something 
that is purchased at retirement when a military person does 
retire, and they make a choice to have a certain portion of 
their retirement income provided to their spouse if they should 
die.
    It also has now been opened up to active duty deaths, which 
is where both Ms. McCloud and I will fall; and we receive that 
same benefit.
    That is usually figured as a percentage. Our husbands would 
be considered 100 percent disabled at a 30-year mark. My 
husband entered the service earlier than 1980, so his 
retirement pay would be based on the last base pay that he had 
received. I think Ms. McCloud's started after that period, so 
hers would be based on the high three. And then there is an 
average, and you take 75 percent of that and then 55 percent of 
that, and that is what the SBP is based on.
    I don't know if that is clear. It is easier when you have a 
chalkboard.
    Mr. Wilson. No, no, that is good.
    And then the offset.
    Ms. Stack. Well, the SBP comes from the DOD. The DIC comes 
from the VA.
    Mr. Wilson. VA.
    Ms. Stack. And for both of the two of us, we are provided 
the DIC on a flat-rate amount. Again, prior to that, it would 
be rank-based. And if you receive both of SBP and DIC, then you 
are offset by the--the SBP is offset by the DIC.
    For some people, as you saw in my remarks, they receive 
nothing. There is a great number that receive absolutely 
nothing, and that tends to be the E6 and below widows and 
widowers. We do have some widowers. And that can be very, very 
difficult and very much a hardship on their families.
    Can you think of anything I have left off?
    Ms. McCloud. What I would like to add--and I appreciate 
your comment about trying to get the story out--first of all, 
to all the people from the first panel who spoke so strongly 
and eloquently on our behalf this morning, thank you so very 
much.
    Ms. Stack. Yes.
    Ms. McCloud. The Military Coalition has been a wonderful 
advocate on our behalf for years now. But the fact remains as 
far as who this offset truly affects, it is 54,000 military 
widows, largely elderly women scattered across the country. And 
they keep telling me I am a young woman; I am a young widow. I 
have to say I feel like I have aged in dog years the past three 
years.
    So you are asking elderly ladies throughout the country who 
are in frail health themselves--they gave up so much over the 
years during their own spouses' military careers. They followed 
them around. They gave up their opportunity frequently to work 
themselves and generate their own retirement income. Then their 
spouse became ill. They spent year after year after year caring 
for them at great physical cost to themselves.
    And then you have the young widow such as myself. I am not 
a whiner, but our plates are very full. We hold down jobs. We 
do the work of both parents.
    My husband was an operational officer. He was an operations 
officer for the Second Battalion, Third Marine Regiment, out of 
Kaneohe Bay, Hawaii. And I would like to think he would be in 
awe of the operational plan I have to have in effect every 
day----
    Mr. Wilson. Yes.
    Ms. McCloud [continuing]. To raise three children by 
myself, get them to school, Scouts, church, after-school 
requirements, band.
    For fun last week, I just had to do a wonderful father-
daughter event with my 5-year-old daughter because I didn't 
want her to be there alone.
    That is what we have to do. Our plates are very full.
    And then we are told Congress has agreed the benefit, in 
principle, this is wrong. It is simply a matter of funding, and 
we need to get the word out. Well, we are trying, but it is 
very discouraging and hard to keep coming at this year after 
year after year and hear we support you in principle, but we 
just can't find the money.
    Mr. Wilson. And something--and my final point is this 
affects a family like $1,000 a month.
    Ms. McCloud. Yes.
    Mr. Wilson. So raising small children or people of age, 
hey, that is a lot of money, and it can be quality of life. So 
thank you very much for being here today.
    Ms. McCloud. Thank you both.
    Mrs. Davis. I would say it is not just the dollars, as you 
say. It is also the idea that you are fighting for, and that I 
think that we certainly acknowledge and recognize.
    If you could for the record, just as I asked the other 
panel, if there are some programs, other retirement benefits, 
if you have some thoughts about where we might look and what we 
might do, we certainly welcome those. And if you would like to 
submit that for the record, we would welcome those comments as 
well.
    [No additional information was submitted for the record.]
    Mrs. Davis. Thank you so much. We appreciate your being 
here. We appreciate your having presented in the past. And you 
are making a difference, not just obviously for your own 
families, you are making a tremendous difference for other 
families. I know that the Gold Star Wives look to you, and they 
are rooting for you every day, and we are, too.
    Thank you very much.
    [Whereupon, at 10:54 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 23, 2010

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 23, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7836.001
    
    [GRAPHIC] [TIFF OMITTED] T7836.002
    
    [GRAPHIC] [TIFF OMITTED] T7836.003
    
    [GRAPHIC] [TIFF OMITTED] T7836.004
    
    [GRAPHIC] [TIFF OMITTED] T7836.005
    
    [GRAPHIC] [TIFF OMITTED] T7836.006
    
    [GRAPHIC] [TIFF OMITTED] T7836.007
    
    [GRAPHIC] [TIFF OMITTED] T7836.008
    
    [GRAPHIC] [TIFF OMITTED] T7836.009
    
    [GRAPHIC] [TIFF OMITTED] T7836.010
    
    [GRAPHIC] [TIFF OMITTED] T7836.011
    
    [GRAPHIC] [TIFF OMITTED] T7836.012
    
    [GRAPHIC] [TIFF OMITTED] T7836.013
    
    [GRAPHIC] [TIFF OMITTED] T7836.014
    
    [GRAPHIC] [TIFF OMITTED] T7836.015
    
    [GRAPHIC] [TIFF OMITTED] T7836.016
    
    [GRAPHIC] [TIFF OMITTED] T7836.017
    
    [GRAPHIC] [TIFF OMITTED] T7836.018
    
    [GRAPHIC] [TIFF OMITTED] T7836.019
    
    [GRAPHIC] [TIFF OMITTED] T7836.020
    
    [GRAPHIC] [TIFF OMITTED] T7836.021
    
    [GRAPHIC] [TIFF OMITTED] T7836.022
    
    [GRAPHIC] [TIFF OMITTED] T7836.023
    
    [GRAPHIC] [TIFF OMITTED] T7836.024
    
    [GRAPHIC] [TIFF OMITTED] T7836.025
    
    [GRAPHIC] [TIFF OMITTED] T7836.026
    
    [GRAPHIC] [TIFF OMITTED] T7836.027
    
    [GRAPHIC] [TIFF OMITTED] T7836.028
    
    [GRAPHIC] [TIFF OMITTED] T7836.029
    
    [GRAPHIC] [TIFF OMITTED] T7836.030
    
    [GRAPHIC] [TIFF OMITTED] T7836.031
    
    [GRAPHIC] [TIFF OMITTED] T7836.032
    
    [GRAPHIC] [TIFF OMITTED] T7836.033
    
    [GRAPHIC] [TIFF OMITTED] T7836.034
    
    [GRAPHIC] [TIFF OMITTED] T7836.035
    
    [GRAPHIC] [TIFF OMITTED] T7836.036
    
    [GRAPHIC] [TIFF OMITTED] T7836.37X
    
    [GRAPHIC] [TIFF OMITTED] T7836.038
    
    [GRAPHIC] [TIFF OMITTED] T7836.039
    
    [GRAPHIC] [TIFF OMITTED] T7836.040
    
    [GRAPHIC] [TIFF OMITTED] T7836.041
    
    [GRAPHIC] [TIFF OMITTED] T7836.042
    
    [GRAPHIC] [TIFF OMITTED] T7836.043
    
    [GRAPHIC] [TIFF OMITTED] T7836.044
    
    [GRAPHIC] [TIFF OMITTED] T7836.045
    
    [GRAPHIC] [TIFF OMITTED] T7836.046
    
    [GRAPHIC] [TIFF OMITTED] T7836.047
    
    [GRAPHIC] [TIFF OMITTED] T7836.048
    
    [GRAPHIC] [TIFF OMITTED] T7836.049
    
    [GRAPHIC] [TIFF OMITTED] T7836.050
    
    [GRAPHIC] [TIFF OMITTED] T7836.051
    
    [GRAPHIC] [TIFF OMITTED] T7836.052
    
    [GRAPHIC] [TIFF OMITTED] T7836.053
    
    [GRAPHIC] [TIFF OMITTED] T7836.054
    
    [GRAPHIC] [TIFF OMITTED] T7836.055
    
    [GRAPHIC] [TIFF OMITTED] T7836.056
    
    [GRAPHIC] [TIFF OMITTED] T7836.057
    
    [GRAPHIC] [TIFF OMITTED] T7836.058
    
    [GRAPHIC] [TIFF OMITTED] T7836.059
    
    [GRAPHIC] [TIFF OMITTED] T7836.060
    
    [GRAPHIC] [TIFF OMITTED] T7836.061
    
    [GRAPHIC] [TIFF OMITTED] T7836.062
    
    [GRAPHIC] [TIFF OMITTED] T7836.063
    
    [GRAPHIC] [TIFF OMITTED] T7836.064
    
    [GRAPHIC] [TIFF OMITTED] T7836.065
    
    [GRAPHIC] [TIFF OMITTED] T7836.066
    
    [GRAPHIC] [TIFF OMITTED] T7836.067
    
    [GRAPHIC] [TIFF OMITTED] T7836.068
    
    [GRAPHIC] [TIFF OMITTED] T7836.069
    
    [GRAPHIC] [TIFF OMITTED] T7836.070
    
    [GRAPHIC] [TIFF OMITTED] T7836.071
    
    [GRAPHIC] [TIFF OMITTED] T7836.072
    
    [GRAPHIC] [TIFF OMITTED] T7836.073
    
    [GRAPHIC] [TIFF OMITTED] T7836.074
    
    [GRAPHIC] [TIFF OMITTED] T7836.075
    
    [GRAPHIC] [TIFF OMITTED] T7836.076
    
    [GRAPHIC] [TIFF OMITTED] T7836.077
    
    [GRAPHIC] [TIFF OMITTED] T7836.078
    
    [GRAPHIC] [TIFF OMITTED] T7836.079
    
    [GRAPHIC] [TIFF OMITTED] T7836.080
    
    [GRAPHIC] [TIFF OMITTED] T7836.081
    
    [GRAPHIC] [TIFF OMITTED] T7836.082
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 23, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7836.083
    
    [GRAPHIC] [TIFF OMITTED] T7836.084
    
    [GRAPHIC] [TIFF OMITTED] T7836.085
    
    [GRAPHIC] [TIFF OMITTED] T7836.086
    
    [GRAPHIC] [TIFF OMITTED] T7836.087
    
    [GRAPHIC] [TIFF OMITTED] T7836.088
    
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
